AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN HILLS, AGUDATH
ISRAEL OF MADISON, RABBI YISROEL REISMAN, STEVEN SAPHIRSTEIN,
APPLICANTS,
v.
ANDREW M. CUOMO, in his official capacity as Governor of New York,
RESPONDENT.
CERTIFICATE OF SERVICE
To the Honorable Stephen Breyer
Associate Justice of the Supreme Court of the United States

ERIC C. RASSBACH
DANIEL BLOMBERG
ADÈLE AUXIER KEIM
JOSEPH DAVIS
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire Ave. N.W.,
Ste. 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

AVI SCHICK
Counsel of Record
MISHA TSEYTLIN
W. ALEX SMITH
SEAN T.H. DUTTON
TROUTMAN PEPPER HAMILTON
SANDERS LLP
875 Third Avenue
New York, NY 10022
(212) 704-6126
avi.schick@troutman.com
Counsel for Applicants

I, Avi Schick, hereby certify that I am a member of the Supreme Court Bar, and that I
have on this 22nd day of November 2020, caused a copy of Applicant’s Reply Brief in Support
of Emergency Application for Writ of Injunction to be served via electronic mail, and via
overnight mail to anyone who does not consent to service via electronic mail, to:
Letitia James
Attorney General, State of New York
Barbara D. Underwood
Solicitor General
Andrea Oser
Deputy Solicitor General
Dustin J. Brockner, Esq.
Brian Ginsberg
Assistant Solicitors General
28 Liberty Street
New York, New York 10005
(212) 416-8020
barbara.underwood@ag.ny.gov
/s/ Avi Schick
AVI SCHICK
TROUTMAN PEPPER HAMILTON
SANDERS LLP
875 Third Avenue New York, NY 10022
(212) 704-6000
Avi.schick@troutman.com
Counsel for Applicants

